Supreme Court, U.S.
FILED

NO.

20-55

.

AUG 1 1 2020
OFFICE OF THE CLERK

IN THE

Supreme Court of the United States
Andrew Darvin Hersh,
Petitioner
V.
Mark Garman, Superintendent, State Correctional
Institution at Rockview, Et. Al.,
Respondent

PETITION FOR WRIT OF CERTIORARI
Petition for Writ of Certiorari from the Order of the
United States Court of Appeals for the Third Circuit, at
docket number 19-2125 affirming the Order of Robert D.
Mariani, District Judge for the United States District
Court of the Middle District of Pennsylvania at Docket
Number 3:16-cv-02290-RDM-CA denying a Petition for
Writ of Habeas Corpus pursuant to 28 U.S.C. § 2254.

Andrew Darvin Hersh, JW2630
Pro Se, Petitioner
State Correctional Institution at Rockview
1 Rockview Place
Bellefonte, PA 16823-0820

:o ft
rr

A

TABLE OF CONTENTS
TABLE OF CONTENTS.........................
TABLE OF AUTHORITIES....................
QUESTIONS PRESENTED FOR REVIEW
PARTIES.............................................

11
•••
111

CONCISE STATEMENT OF THE CASE....

3

REFERENCE TO THE OPINIONS DELIVERED IN
COURTS BELOW..................................... ...................................

1
2

THE
11

CONCISE STATEMENT OF JURISDICTION.....................

12

REASONS RELIED UPON FOR WRIT OF CERTIORARI

14

Ground I. Does a ‘non-custodial’ confession uttered under the
influence of the prescription drug, ‘Ativan,’ render a confession
involuntary and inadmissible when the drug administered to Mr.
Hersh was never proven by state’s evidence to not significantly hinder
Mr. Hersh’s cognitive ability while Appellate Counsel, Thomas R. Nell
Esq.’s actions denied Mr. Hersh the ability to raise this claim of
ineffective assistance of counsel for Trial Counsel, Warren P. Bladen
14
Esq.’s failure to suppress said confession?
Ground II. Do flawed credibility determinations of a State Court
permanently insulate the State Court’s findings from Federal Court
review where objective evidence within the certified record
obviously contradicts the credibility determinations made by the
State Court?
26
CONCLUSION....................................

34

CERTIFICATE OF COMPLIANCE

36

CERTIFICATE OF SERVICE........

38

UNSWORN DECLARATION...........

40

u

TABLE OF AUTHORITIES
United States Supreme Court Cases
Anders v. California, 386 U.S. 738 (1967)...........
20
Anderson v. Bessemer City, 470 U.S. 564 (1985)
..........26, 27
Beckwith v. United States, 425 US 341 (1976) —
16, 17, 18, 25
California v Beheler, 463 US 1121, 1125, (1983) (per curiam)
14
Davis v North Carolina, 384 US 737, 740, 741-742 (1966)......
17
Frazier v Cupp. 394 US 731. 739 (1969)................
17
Gallow v. Cooper, 570 U.S. 933 (2013)...................
23
Houston v. Lack, 108 S.Ct. 2379 (1988)..................
38
Martinez v. Ryan, 566 U.S. 1 (2012).......................
21, 22, 23, 25
Miller-El v. Cockrell 537 U.S. 322. 340 (2003)
29
Miranda v. Arizona, 384 U.S. 436 (1966)...............
14, 15, 16
Orozco v. Texas, 394 U.S. 324, 326-327 (1969)......
15
Rogers v Richmond, 365 US 534, 544 (1961)........
17
Stansburv v. California, 511 U.S. 318, 324 (1994)
15
Strickland v. Washington. 466 U.S. 668 (1984)-21, 22, 24, 28, 29, 30, 32
Thompson v. Keohane, 516 U.S. 99 (1995).................................... .
14
Trevino v. Thaler, 569 U.S. 413 12013)........................................... .
22, 23
United States v United States Gypsum Co.. 68 S Ct 525 (1948)
26
United States v. Raddatz, 447 U.S. 667, 669 (1980)....................
27
Wainwright v Witt, 469 US , (1985)...............................................
26
29
Wiggins v. Smith, 539 U.S. 510 (2003)........................................... .

Federal Cases
Fahv v. Horn. 516 F.3d 169. 196 (2008)................................
Lambert v. Blackwell, 387 F.3d 210, 236 (3rd Cir. 2004) —
Ramonez v. Berghuis, 490 F.3d 482, 490 (6th Cir. 2007) —
Steigler v. Anderson, 496 F.2d 793, 798 (3d Cir. 1974)......
Taylor v. Maddox, 366 F.3d 992, 999-1000 (9th Cir. 2004)United States v. Jacobs, 312 F. Supp. 2d 619 (2004)..........
United States v. Leese, 176 F.3d 740, 743 (3d Cir. 1999)Valdez v. Cockrell, 274 F.3d 941, 951 n. 17 (5th Cir. 2001)

19
28
27, 30
15
28
14, 15, 17
15
28

State Cases
Commonwealth v. Culberson, 358 A.2d 416, 417 (1976)
Commonwealth v. Delbridge, 855 A.2d 27. 39 (2003)
in

19
30

Commonwealth v.
Commonwealth v.
Commonwealth v.
Commonwealth v.
Commonwealth v.
Commonwealth v.
Commonwelath v.

Johnson, 966 A.2d 523 (2009)
Jones, 322 A.2d 119, 125 (1974) Jones. 700 A.2d 423 (1997).........
Manning. 435 A.2d 1207 (1981)-Nester, 709 A.2d 879. 882 (1998)
Smith, 291 A.2d 103 (1972).....
Grant, 813 A. 3d 726 (Pa. 2002)

28, 29
19
39
19
18
19
23

Federal Constitutional Provisions
12

Article III § 2
Federal Statutes
28
28
28
28

U.S.C.
U.S.C.
U.S.C.
U.S.C.

§
§
$
$

2241........
2254........
2254(d)(2)
2254(e)(1)-

8
i, 8
27
27, 28

State Statutes

18 Pa.C.S.A.
18 Pa.C.S.A.
18 Pa.C.S.A.
42 Pa.C.S.A.
42 Pa.C.S.A.

$
$
§
$
$

3121(c)......
3126(a)(7) 6301...........
9541, et seq.
9718...........

3
3
3
25
3
Federal Rules

Supreme Court Rule 29 -Supreme Court Rule 33 -Supreme Court Rule 33.2

38
36
36

State Rules
Pa.R.A.P. Rule 1925(a) —
Pa.R.A.P. Rule 1925(b)(4)
Pa.R.Crim.P. Rule 907(1)

6

21
6

Other Authorities
F. Inbau, J. Reid, & J. Buckley, Criminal Interrogation and
Confessions at 232, 236, 297-298 (3d ed. 1986)................... .

IV

15

QUESTIONS PRESENTED FOR REVIEW

Ground I. Does a “non-custodial” confession uttered under
the influence of the prescription drug, “Ativan,” render a
confession involuntary and inadmissible when the drug
administered to Mr. Hersh was never proven by state’s
evidence to not significantly hinder Mr. Hersh’s cognitive
ability while Appellate Counsel, Thomas R. Nell Esq.’s
actions denied Mr. Hersh the ability to raise this claim of
ineffective assistance of counsel for Trial Counsel, Warren P.
Bladen Esq.’s failure to suppress said confession?
(Proposed Answer in the Positive)
Ground II. Do flawed credibility determinations of a State
Court permanently insulate the State Court’s findings from
Federal Court review where objective evidence within the
certified record obviously contradicts the credibility
determinations made by the State Court?
(Proposed Answer in the Positive)

1

PARTIES
The Petitioner in the above captioned matter is Mr. Andrew
Darvin Hersh, (Mr. Hersh), Pro Se, who currently is incarcerated within
the State Correctional Institution at Rockview, 1 Rockview Place,
Bellefonte, PA 16823.
Respondent in the above captioned matter is the Commonwealth
of Pennsylvania represented by Assistant District Attorney, Kelly L.
Margetas, Esq. whose office is located within the Adams County District
Attorney’s Office, Adams County Courthouse, 111 Baltimore Street,
Rm. 6, Gettysburg, PA 17325.
Mark Garman is represented by Joshua Shapiro, Esq., the
Attorney General of Pennsylvania, whose office is located at 15th FI.
Strawberry Square, Harrisburg, PA 17120.

2

CONCISE STATEMENT OF THE CASE
This is a Petition for Writ of Certiorari by Andrew Darvin Hersh,
(Mr. Hersh), from the denial of Certificate of Appealability and an
Application for Rehearing to the United States Court of Appeals of the
Third Circuit, at Docket Number 19-2125.
On August 10, 2010, Mr. Hersh was adjudicated guilty on Count 1,
Rape of a Child, 18 Pa.C.S.A. § 3121(c). a Felony of the First Degree;
Count 3, Indecent Assault, Person Less than 13 Years of Age, 18
Pa.C.S.A. § 3126(a)(7). a Felony of the Third Degree; and Count 4,
Corruption of Minors, 18 Pa.C.S.A. § 6301. a Misdemeanor of the First
Degree after a jury trial.

On November 12, 2010, the Honorable

Michael A. George sentenced Mr. Hersh to a sentence of thirteen (13) to
thirty (30) years at a State Correctional Institution, based on the
Mandatory Minimum provisions pursuant to 42 Pa.C.S.A. § 9718. The
Court determined that Counts 3 and 4 merged with Count 1 for
sentencing purposes.
Mr. Hersh, through counsel, filed Notice of Appeal. On May 20,
2011, Mr. Hersh’s Direct Appeal was dismissed for a failure to file a
brief, at Superior Court Docket Number 1872 MDA 2010.

3

Mr. Hersh filed a Pro Se, Post Conviction Relief Act, (P.C.R.A.),
Petition on June 17, 2011.

After a pre-hearing video conference

regarding the P.C.R.A. Petition, the Court issued an Order dated
September 8, 2011 granting the P.C.R.A. Petition by reinstating Mr.
Hersh’s appellate rights. A Notice of Appeal was filed, through Counsel
on September 15, 2011. On June 20, 2012, Mr. Hersh’s Direct Appeal to
the Superior Court of Pennsylvania was affirmed at Docket Number
1639 MDA 2011. Mr. Hersh, through counsel, did not file a Petition for
Allowance of Appeal.
Mr. Hersh, through counsel, filed a P.C.R.A. Petition on August
22, 2012.

On December 20, 2012, after a pre-hearing conference

regarding the P.C.R.A. Petition, an Evidentiary Hearing was scheduled
for March 25, 2013. The Evidentiary Hearing was then continued in an
Order by the Honorable Michael A. George to June 17, 2013. At the
conclusion of the June 17, 2013, Evidentiary Hearing, the Court stated
that it would issue an opinion. On August 6, 2013, the Court issued an
Opinion and Order dismissing the P.C.R.A. Petition.
Appeal was filed on August 22, 2013.

A Notice of

On November 9, 2013, Mr.

Hersh’s Counsel, Thomas R. Nell, Esq., filed a Petition to Withdraw as

4

Counsel.

On November 27, 2013, Mr. Hersh filed an Application to

Proceed Pro Se to the Superior Court of Pennsylvania. The Superior
Court granted the Pro Se Application on December 4, 2013. Mr. Hersh
filed a Pro Se brief on December 19, 2013.

On April 11, 2014, the

Superior Court of Pennsylvania affirmed the Order dismissing Mr.
Hersh’s P.C.R.A. Petition at Docket Number 1535 MDA 2013.
Mr. Hersh then filed a timely Petition for Allowance of Appeal
with the Supreme Court of Pennsylvania on April 24, 2014.

The

Commonwealth filed a “No Answer” letter to Mr. Hersh’s Petition for
Allowance of Appeal on May 2, 2014. Mr. Hersh filed an Application for
Leave to Amend on May 16, 2014.

On May 24, 2014, the

Commonwealth filed a “No Answer” letter to Mr. Hersh’s Application
for Leave to Amend.

On August 21, 2014, the Supreme Court of

Pennsylvania granted Mr. Hersh’s Application for Leave to Amend, but
denied his Petition for Allowance of Appeal at Docket Number 271 MAL
2014.
On August 25, 2014, Mr. Hersh filed a second P.C.R.A. Petition.
On September 16, 2014, the Honorable Michael A. George issued an
Order of Intent to Dismiss Mr. Hersh’s P.C.R.A. Petition pursuant to

5

Pa.R.Crim.P. Rule 907(1). Mr. Hersh filed an Objection to Intent to
Dismiss Post Conviction Relief Act Petition Without a Hearing on
September 25, 2014.

On January 12, 2015, Mr. Hersh filed an

Application for Leave to Amend Post Conviction Relief Act Petition. On
February 5, 2015, the Honorable Michael A. George issued an Opinion
and Order denying Mr. Hersh’s P.C.R.A. Petition without a hearing.
On February 17, 2015, Mr. Hersh filed a Notice of Appeal. On
March 3, 2015, the Honorable Michael A. George issued an Order for
Mr. Hersh to file a Concise Statement of Matters Complained on
Appeal. Mr. Hersh filed a Concise Statement of Matters Complained on
Appeal on March 10, 2015. On March 25, 2015, the Honorable Michael
A. George issued an Opinion pursuant to Pa.R.A.P. Rule 1925(a). On
April 15, 2015, the Superior Court of Pennsylvania issued an Order
requiring Mr. Hersh to file briefs on the matters on or before May 26,
2015. Mr. Hersh filed his Brief for Appellant on April 15, 2015. On
April 23, 2015, upon receipt of Mr. Hersh’s Brief for Appellant, the
Superior Court of Pennsylvania issued an Order requiring the
Commonwealth to file briefs on or before May 20, 2015. On May 19,
2015, Mr. Hersh filed an Application to Set Bail Pending Appeal. On

6

May 19, 2015, the Commonwealth, through counsel, filed Brief for
Appellee. On May 27, 2015, the Superior Court of Pennsylvania issued
an order denying Mr. Hersh’s request for Bail Pending Appeal.

On

August 21, 2015, the Superior Court issued an Order and Opinion
affirming the Order of the P.C.R.A. Court at Docket Number 317 MDA
2015.
On August 29, 2015, Mr. Hersh filed an Application for ReArgument with the Superior Court of Pennsylvania. On October 29,
2015

the Superior Court of Pennsylvania denied Mr. Hersh’s

Application for Re-Argument at Docket Number 317 MDA 2015.
On November 13, 2015, Mr. Hersh filed a Petition for Allowance of
Appeal, (Allocatur), with the Supreme Court of Pennsylvania.

The

Commonwealth declined to answer the Allocatur. The Supreme Court
of Pennsylvania denied the Petition for Allowance of Appeal,
(Allocatur), at Docket Number 921 MDA 2015 on March 8, 2016.
On April 29, 2016, Mr. Hersh filed a Writ of Certiorari with the
United States Supreme Court. The Commonwealth declined to answer
the Writ of Certiorari. The United States Supreme Court denied Writ
of Certiorari at Docket Number 15-9217 on June 13, 2016.

7

On June 24, 2016, Mr. Hersh filed a Petition for Writ of Habeas
Corpus with the Pennsylvania Supreme Court at Docket Number 87
MM 2016. The Commonwealth declined to answer the Writ of Habeas
Corpus. The Pennsylvania Supreme Court denied the Writ of Habeas
Corpus on August 22, 2016.
On September 23, 2016, Mr. Hersh filed a Petition for Writ of
Habeas Corpus pursuant to 28 U.S.C. § 2241 with the United States
District Court of the Middle District of Pennsylvania. On October 17,
2016, the Honorable Robert D. Mariani, dismissed the Petition for Writ
of Habeas Corpus without prejudice for lack of jurisdiction.
On November 4, 2016, Mr. Hersh filed a Writ of Habeas Corpus
pursuant to 28 U.S.C. § 2254 with the United States District Court of
the Middle District of Pennsylvania at Docket Number 3:16-cv-02290RDM-CA, regarding issues filed previously with this Honorable Court
on previously erroneous filed Writ of Habeas Corpus pursuant to 28
U.S.C. § 2241.
On May 10, 2019, the Honorable Robert D. Mariani denied the
Petition for Writ of Habeas Corpus.

8

On May 14, 2019, Mr. Hersh filed a Notice of Appeal to the United
States District Court of the Middle District of Pennsylvania appealing
the ruling of the Honorable Robert D. Mariani to the United States
Court of Appeals for the Third Circuit.
On May 29, 2019, Mr. Hersh filed an Application for Certificate of
Appealability to the United States Court of Appeals for the Third
Circuit at Docket Number 19-2125.
On February 7, 2020, the United States Court of Appeals for the
Third Circuit denied Mr. Hersh’s Application for Certificate of
Appealability.
On February 11, 2020, Mr. Hersh filed a Motion for Extension of
Time to File a Petition for Rehearing of the Application for Certificate of
Appealability.
In lieu of an answer from the United States Court of Appeals for
the Third Circuit, Mr. Hersh filed a Petition for Rehearing of the
Application for Certificate of Appealability on February 23, 2020.
On March 6, 2020, the United States Court of Appeals for the
Third Circuit granted the Motion for Extension of Time by filing the

9

Petition for Rehearing of the Application for Certificate of Appealability
that day.
On May 18, 2020, Mr. Hersh’s Petition for Rehearing of the
Application for Certificate of Appealability was denied, giving rise to
this instant appeal.

10

REFERENCE TO THE OPINIONS
DELIVERED IN THE COURTS BELOW
The Orders of the United States Court of Appeals for the Third
Circuit are reproduced in its entirety at Appendix A. The Order of the
United States District Court of the Middle District of Pennsylvania is
reproduced at Appendix B.

11

CONCISE STATEMENT OF JURISDICTION
The jurisdiction of this Honorable Court applies to Mr. Hersh’s
instant appeal based on the Constitutional jurisdiction granted to the
United States Supreme Court by the founding fathers in Article III § 2
of the United States Constitution which states in relevant part:
“The judicial power shall extend to all cases, in law and
equity, arising under this Constitution, the Laws of the
United States, and Treaties made, or which shall be made,
under their authority; - to all cases affecting Ambassadors,
other public Ministers and Consuls;
to all cases of
admiralty and maritime jurisdiction; - to controversies to
which the United States shall be a party; - to controversies
between two or more states; - between a State and citizens of
another State; - between citizens of different states; between citizens of the same state claiming lands under the
grants of different states, and between a state, or the
citizens thereof, and foreign states, citizens, or subjects. In
all cases affecting ambassadors, other public ministers and
consuls, and those in which a state shall be a party, the
Supreme Court shall have original jurisdiction. In all the
other cases before mentioned, the Supreme Court shall have
appellate jurisdiction, both as to law and fact, with such
exceptions, and under such regulations as the Congress shall
make.”

In the case sub judice, this Honorable Court retains appellate
jurisdiction upon the collateral review challenge to multiple instances of
Ineffective Assistance of Counsel during the representation of Counsel,
Mr. Warren P. Bladen, Esq., (Mr. Bladen), challenging the judgment of

12

sentence imposed upon him in the Adams County Court of Common
Pleas, Adams County, Pennsylvania.

13

REASONS RELIED UPON FOR
WRIT OF CERTIORARI
Ground I. Does a “non-custodial” confession uttered under the
influence of the prescription drug, “Ativan,” render a confession
involuntary and inadmissible when the drug administered to Mr. Hersh
was never proven by state’s evidence to not significantly hinder Mr.
Hersh’s cognitive ability while Appellate Counsel, Thomas R. Nell
Esq.’s actions denied Mr. Hersh the ability to raise this claim of
ineffective assistance of counsel for Trial Counsel, Warren P. Bladen
Esq.’s failure to suppress said confession?
Within Thompson v. Keohane, 516 U.S. 99 (1995) this
Honorable Court opined:
“The ultimate ‘in custody’ determination for Miranda v.
Arizona, 384 U.S. 436 (1966) purposes, we are persuaded,
fits within the latter class of cases. Two discrete inquiries
are essential to the determination: [F]irst, what were the
circumstances surrounding the interrogation; and [S]econd,
given those circumstances, would a reasonable person have
felt he or she was not at liberty to terminate the
interrogation and leave. Once the scene is set and the
players' lines and actions are reconstructed, the court must
apply an objective test to resolve ‘the ultimate inquiry’:
‘[was] there a 'formal arrest or restraint on freedom of
movement' of the degree associated with a formal arrest."
(Thompson, 516 U.S. at 112)(citing California v Beheler,
463 US 1121, 1125, (1983) (per curiam) and Oregon v,
Mathiason, 429 US 492, 495 (1977D.
Within United States v, Jacobs. 312 F. Supp. 2d 619 (2004).
the Third Circuit Court of Appeals further opined that:

14

“The key inquiry in the determination of whether an
individual is in ‘custody’ for the purposes of Miranda is
‘whether there is a formal arrest or restraint on freedom of
movement of the degree associated with a formal arrest.’
Stated another way, custody means the deprivation of an
individual's ‘freedom of action in any significant way.’ A
conclusion of custody is ‘not susceptible of an exact
definition[,] . . . the determination . . . must be made on a
case-by-case basis... Further, the determination of custody
is an objective inquiry, one that evaluates the circumstances
of the interrogation... A custodial interrogation may occur
outside of a police station, and, moreover, have taken place
absent a formal arrest... However, 'station-house'
interrogations should be scrutinized with extreme care for
any taint of psychological compulsion or intimidation
because such pressure is most apt to exist while a defendant
is interviewed at a police station... The protections of
Miranda are not required merely because law enforcement
officers suspect the person they are questioning of a crime.
However, ‘the more cause for believing the suspect
committed the crime, the greater the tendency to bear down
in interrogation and to create the kind of atmosphere of
significant restraint that triggers Miranda . . . But this is
simply one circumstance, to be weighed with all the others...’
Further, if undisclosed to the individual being questioned, a
law enforcement officer's subjective view that an individual
he or she is questioning is a suspect does not bear upon the
question of whether an individual is in custody for the
purposes of Miranda.”
(Jacobs. 312 F. Sunn. 2d at 627, 628)(citing United
States v. Leese. 176 F.3d 740. 743 (3d Cir. 1999):
Steigler v. Anderson. 496 F.2d 793. 798 (3d Cir. 1974):
Miranda. 384 U.S. at 444: Orozco v. Texas. 394 U.S. 324.
326-327 (1969): Stansburv v. California. 511 U.S. 318.
324 (1994) and F. Inbau. J. Reid. & J. Buckley.
Criminal Interrogation and Confessions at 232. 236.
297-298 (3d ed. 1986)).
15

Instantly, Mr. Hersh was interrogated within a “station house,”1
yet was alleged to have been a “non-custodial” interview due to the fact
that Mr. Hersh was “free to leave.” This principle of being “free to
leave” is not the sole guise of determining custodial versus noncustodial.

Had the interview been custodial, Miranda would have

directly applied. Since Mr. Hersh never was given his proper Miranda
warnings, Mr. Hersh’s “confession” would have simply been invalid for
lack of proper application of Miranda, yet strategically, the prosecution
utilized the “non-custodial” label to allow the “confession” be admissible.
However, this Honorable Court held within Beckwith v. United
States. 425 US 341 (1976) that:
“[N]on[-]custodial interrogation[s] might possibly[,] in some
situations, by virtue of some special circumstances, [can] be
characterized as one where "the behavior of... law
enforcement officials was such as to overbear petitioner's
will to resist and bring about confessions not freely selfdetermined...’ When such a claim is raised, it is the duty
of an appellate court, including this Court, ‘to examine
the entire record and make an independent
determination of the ultimate issue of voluntariness • • •
Proof that some kind of warnings were given or that none
were given would be relevant evidence only on the issue of
whether the questioning was in fact coercive.”
Pennsylvania State Police Barracks, 3303 Old Harrisburg Road, Gettysburg, PA
17325.

i

16

(Beckwith, 425 US at 348)(emphasis added)(citing Rogers
v Richmond. 365 US 534. 544 (1961): Davis v North
Carolina. 384 US 737. 740. 741-742 (1966): Frazier v
Cupp. 394 US 731. 739 (1969)).
Instantly, the United States District Court, along with the United
States Court of Appeals had a “[duty] ‘to examine the entire record and
make an independent determination of the ultimate issue of
voluntariness’”2
The independent appellate court(s) failed in this duty, eliminating
a constitutional challenge in Mr. Hersh’s matter due to the simple fact
that even in the event of a non-custodial interrogation, “[the Court]
must still examine the totality of the circumstances surrounding the
interrogation to determine if his confession was voluntary because a
non[-]custodial interrogation ‘might possibly in some situations, by
virtue of some special circumstances,’ result in an involuntary
confession.”3
Further, under this auspice, along with the Jacobs court
analysis, such interrogations “should be scrutinized with extreme care
for any taint of psychological compulsion or intimidation because such
2 Beckwith. 425 US at 348
17

pressure is most apt to exist while a defendant is interviewed at a police
station,”4
Trial Counsel, Warren P. Bladen, Esq., (Mr. Bladen), failed to
adequately determine if Mr. Hersh was interrogated through an actual
“non-custodial” interview and if the “psychological compulsion”5 on Mr.
Hersh was such during said interview that Mr. Hersh believed he was
in custody at the time.
Mr. Hersh through the certified record was proven to be under the
influence of the prescription Benzodiazepine drug, Ativan, (Lorazepam)
as shown within the notes of testimony.6
Mr.

Hersh’s intoxication during the interrogation on the

Benzodiazepine drug, Ativan is well established. Although, within both
Pennsylvania and American jurisprudence, it is well settled that:

3 Commonwealth v. Nester. 709 A.2d 879, 882 (1998)(citing Beckwith. 425 U.S.
at 348).
4 Id at 628.
5 Id at 628.
6 Accord N.T., Transcripts of Proceeding of Jury Trial, August 9, 2010, 147:18-25,
148:1-12; N.T., Transcripts of Proceeding of Jury Trial, August 9, 2010, 182:9-17,
182:23-25; N.T., Transcripts of Proceeding of Jury Trial, August 9, 2010, 183:1-5,
183:9-15; N.T., Transcripts of Proceeding of Jury Trial, August 9, 2010, 184:10-25,
185:1-25; N.T., Transcripts of Proceeding of Jury Trial, August 9, 2010, 186:25,
187:1-3; and N.T., Transcripts of Proceeding of Jury Trial, August 9, 2010, 201:3-13;
N.T., Transcripts of Proceeding of Jury Trial, August 9, 2010, 203:l-23.(Exhibit A);
(See also Page 1, Police Report, Exhibit B).

18

“‘[i]ntoxication is a factor to be considered, but is not sufficient, in and of
itself to render a confession involuntary...’ ‘The test is whether there
was sufficient mental capacity for the defendant to know what he was
saying and to have voluntarily intended to say it...’ The duty of the
suppression court is to determine whether the Commonwealth has
established by a preponderance of the evidence that the confession was
voluntary and that the waiver of constitutional rights were knowing
and intelligent.”7
As such, it was the duty of Counsel, Mr. Bladen to file a
suppression motion prior to trial, call an expert toxicologist at a
suppression hearing, call an expert toxicology witness or object to the
sarcasm as prejudicial during trial to support Mr. Hersh’s claims of
what occurs during an overdose of “Ativan.”

Mr. Bladen, however,

failed in this duty.
Mr. Hersh contends that the written admission of guilt/ confession
referenced supra is blatantly inadmissible due to the fact the written
admission of guilt/ confession was not willing, knowing, or voluntary.

7 Fahv v. Horn. 516 F.3d 169. 196 (2008)(citing Commonwealth v. Jones. 322
A.2d 119. 125 (1974): Commonwealth v. Culberson. 358 A.2d 416, 417 (1976):
Commonwealth v. Manning. 435 A.2d 1207 (1981): and Commonwealth v.
Smith. 291 A.2d 103 (1972b.

19

As said written admission of guilt/ confession was rendered during the
intoxication of a known mind altering substance.
Such a failure was further hindered by Court Appointed P.C.R.A.
Counsel, Thomas Richard Nell, Esq.’s, (Mr. Nell), inaction.

Mr. Nell

filed a “Petition to Withdraw as Counsel” as an “Anders Brief’8 to the
Superior Court of Pennsylvania on November 9, 2013, only months after
filing a Notice of Appeal on August 22, 2013, along with a Statement of
Matters Complained of on Appeal pursuant to Pennsylvania Rules of
Appellate Procedure, (Pa.R.A.P.), Rule 1925(b) on September 12,
2013.9
With Mr. Nell’s “Anders Brief’ being filed Mr. Hersh was left
with no choice but to proceed Pro Se without the proper assistance of
counsel.
Mr. Nell’s failure to raise the instant claim of ineffectiveness of
trial counsel into the Pa.R.A.P. Rule 1925(b) statement prohibited Mr.
Hersh from raising this relevant issue before the Superior Court of

8 Anders v. California. 386 U.S. 738 (1967)(describing the requirements of an
Anders brief that is filed when appointed counsel seeks to withdraw from a direct
appeal [/collateral attack] based on a determination that the issues presented are
wholly frivolous.).
9 See Pa.R.A.P. Rule 1925(b). Statement of Matters Complained of on Appeal.

20

Pennsylvania

on

“initial-review

Pa.R.A.P. Rule 1925(b)(4)(vii).11

collateral

proceeding”10

appeal.

Waiver of the claim would have

been predicated under the fact that the claim was never raised,
therefore, Mr. Hersh was denied the opportunity by Counsel, Mr. Nell
to properly exhaust his remedies on this extremely relevant issue.
Along with Mr. Nell’s failure when Mr. Hersh finally raising this
issue Mr. Hersh relied on the second exception within Martinez v.
Rvan, 566 U.S. 1 (2012) “where appointed counsel in the initial-review
collateral proceeding, where the claim should have been raised, was
ineffective under the standards of Strickland v. Washington. 466
U.S. 664 (1984).”12

therefore a procedural default will not bar Mr.

Hersh from proceeding with the relevant claim presented.
Within Martinez this Honorable Court addressed whether the
issue of “ineffective assistance of counsel in an initial review collateral
proceeding on a claim of ineffective assistance at trial,”13 “[could]
provide cause for a procedural default in a federal habeas proceeding.”14

10 Martinez. 566 U.S. at 14
11 “(vii) Issues not included in the Statement and/or not raised in accordance with
the provisions of this paragraph (b)(4) are waived.”
12 Martinez. 566 U.S. at 14
13 Id. at 9.
14 Id. at 9.

21

The Martinez Court held that “[inadequate assistance of counsel at
initial-review collateral proceedings may establish cause for a prisoner’s
procedural default of a claim of ineffective assistance at trial.”15
Specifically, the Court determined a standard where two (2) exceptions
establish “cause” in this context:
“[W]hen a State requires a prisoner to raise an ineffectiveassistance of-trial-counsel claim in a collateral proceeding, a
prisoner may establish cause for a default of an ineffectiveassistance claim in two circumstances. The first is where
the state courts did not appoint counsel in the initial-review
collateral proceeding for a claim of ineffective assistance at
trial. The second is where appointed counsel in the initialreview collateral proceeding, where the claim should have
been raised, was ineffective under the standards of
Strickland. To overcome the default, a prisoner must also
demonstrate that the underlying ineffective-assistance-oftrial-counsel claim is a substantial one, which is to say that
the prisoner must demonstrate that the claim has some
merit.”
(Martinez. 566 U.S. at 14)(Citing Miller-El)
Then, within Trevino v. Thaler. 569 U.S. 413 (2013). the Court
ruled that the ruling in Martinez applied to states like Texas, in which:
“[the] state procedural framework, by reason of its design
and operation, makes it highly unlikely in a typical case that
a defendant will have a meaningful opportunity to raise a
claim of ineffective assistance of trial counsel on direct
appeal.”
15 Id. at 9.
22

(Trevino. 569 U.S. at 429).
Further, within Gallow v. Cooper. 570 U.S. 933 (2013), a
Louisiana case, where “state habeas counsel neglected to ‘properly
presen[t]’ the petitioner’s ineffective assistance claim in state court,”16
the United States Supreme Court deemed this claim ‘indistinguishable’
[from Trevino]”17
Specifically,

within

Pennsylvania

jurisprudence,

claims

of

ineffectiveness are deferred to “initial-review collateral proceedings.”18
Within Commonwelath v. Grant. 813 A.3d 726 (Pa. 2002), the Court
declared that:
“We now hold that, as a general rule, a petitioner should
wait to raise claims of ineffective assistance of trial counsel
until collateral review.”
(Grant. 813 A.3d at 738).
With the Grant decision, Pennsylvania joins states like Texas,
Louisiana, and others who defer such claims to a form of “initial-review
collateral proceedings.”19, such as a writ of habeas corpus, or, in

16 Id at 933.
17 Id at 933.
18 Martinez. 566 U.S. at 14.
19 Martinez. 566 U.S. at 14.
23

Pennsylvania, a Petition pursuant to the Post Conviction Relief Act,
(P.C.R.A.), 42 Pa.C.S.A. § 9541. et sea.
Thereby, utilizing the stare decisis mentioned supra, along with
the standards for ineffective assistance of counsel set forth in
Strickland, supra, Mr, Hersh’s claim has arguable merit due to his
constitutional right against self incrimination guaranteed to him by
both the Fifth Amendment of the United States Constitution and
Article 1 § 9 of the Pennsylvania Constitution. Along with his right to
adequate, effective counsel protected by both the Article 1 § 9 of the
Pennsylvania Constitution and the Sixth Amendment of the United
States Constitution was violated when Mr. Bladen failed to suppress
the involuntary confession, prior to trial, call an expert toxicology
witness at a suppression hearing, or call an expert toxicology witness at
trial to support the claims of Mr. Hersh.
Mr. Hersh was clearly prejudiced by the fact that Mr. Bladen did
not properly suppress the unwilling, unknowing, and involuntary
confession, as the conviction was primarily supported by said
confession. Mr. Bladen’s blatant inaction deprived Mr. Hersh of a truly
impartial tribunal, which without a written admission of guilt/

24

confession obviously would have significantly modified the outcome of
the proceedings, as Mr. Hersh may never have been charged with a
crime, or if charged been found guilty of a crime by a jury of his peers.
Mr. Hersh was additionally prejudiced as the United States
District Court, along with the United States Court of Appeals failed in
their “[duty] ‘to examine the entire record and make an independent
determination of the ultimate issue of voluntariness [of the alleged
confession made under the intoxication of Ativan]’”20
It is clear from the argument, supra, that Mr. Hersh satisfies the
requirements of Martinez, permitting the procedural default to be
excused in the instant matter. Furthermore, Mr. Hersh has “sho[wn]
that reasonable jurists would debate whether the [initial] petition
should have been resolved in a different manner [based upon the
application of Martinez which ]...
encouragement to proceed further.’”21

20 Beckwith. 425 US at 348

25

[was]

‘adequate to deserve

Ground II. Do flawed credibility determinations of a State Court
permanently insulate the State Court’s findings from Federal Court
review where objective evidence within the certified record obviously
contradicts the credibility determinations made by the State Court?
Within

this

Honorable

Court’s

decision

in Anderson

Bessemer City. 470 U.S. 564 (1985) the Court determined that:
“When findings are based on determinations regarding the
credibility of witnesses, Rule 52(a) demands even greater
deference to the trial court's findings; for only the trial judge
can be aware of the variations in demeanor and tone of voice
that bear so heavily on the listener's understanding of and
belief in what is said... This is not to suggest that the trial
judge may insulate his findings from review by
denominating them credibility determinations, for factors
other than demeanor and inflection go into the decision
whether or not to believe a witness. Documents or objective
evidence may contradict the witness' story; or the story itself
may be so internally inconsistent or implausible on its face
that a reasonable fact[-]finder would not credit it. Where
such factors are present, the court of appeals may well find
clear error even in a finding purportedly based on a
credibility determination... But when a trial judge's
finding is based on his decision to credit the testimony
of one of two or more witnesses, each of whom has told
a coherent and facially plausible story that is not
contradicted by extrinsic evidence, that finding, if not
internally inconsistent, can virtually never be clear
error”
(Anderson. 470 U.S. at 575)(emphasis added) (citing
Wainwright v Witt. 469 US . (1985) and United States v
United States Gypsum Co.. 68 S Ct 525 (1948)).

21 Slack. 529 U.S. at 484

26

v.

However, in direct violation of Anderson, supra, the prior Courts
of the Federal jurisdiction have prevented review based upon flawed
credibility determinations.
It is true that “[Cjourts must always be sensitive to the problems
of making credibility determination on the cold record,22 [however],
“[the] Constitution leaves it to [the] jury, not the judge, to evaluate the
credibility of witnesses in deciding a criminal defendant’s guilt or
innocence. ”23
In such a context, several Circuit Courts of the United States
contemplated that:
“[T]he language of § 2254(d)(2) and § 2254(e)(1) implies an
important distinction: $ 2254(d)(2)’s reasonableness
determination turns on a consideration of if the totality of
the ‘evidence presented in the state-court proceeding,’ while
§ 2254(e)(1) contemplates a challenge to the state court’s
individual factual determinations, including a challenge
based wholly or in part on evidence outside the state trial
record.” We therefore read § 2254(d)(2) and § 2254(e)(1)
together as addressing two somewhat different inquiries.
The fundamental prerequisite to granting the writ on factual
grounds is consideration of the evidence relied upon in the
state court proceeding. Section 2254(d)(2) mandates the
federal habeas court to assess whether the state court’s
determination was reasonable or unreasonable given that
evidence. If the state court’s decision based on such a
22 United States v. Raddatz. 447 U.S. 667. 669 (1980).
23 Ramonez v. Berghuis. 490 F.3d 482. 490 (6th Cir. 2007).
27

determination is unreasonable in light of the evidence
presented in the state court proceeding, habeas relief is
warranted. Within this overarching standard, of course, a
petitioner may attack specific factual determinations that
were made by the state court, and that are subsidiary to the
ultimate decision. Here, section 2254(e)(1) comes into play,
instructing that the state court’s determination must be
afforded a presumption of correctness that the petitioner can
rebut only by clear and convincing evidence.”24
In the matter sub judice, the testimony at issue was determined
by a judicial officer acting as the fact-finder, and not a jury, yet, “[w]hen
a P.C.R.A. hearing is held and the P.C.R.A. Court makes findings of
fact, we expect the P.C.R.A. Court to make necessary credibility
determinations.”25
Within Pennsylvania jurisprudence, a credibility determination of
a judicial officer as a fact-finder typically is given “great deference” by
appellate courts. However, within Johnson, the Court challenged this,
when it determined:
“[T]hat assessing credibility for purposes of Strickland
prejudice is not necessarily the same thing as assessing
credibility at trial... Logically, however, credibility
assessments in the Strickland context, are not absolutes,
but must be made with an eye to the governing standard of a

24 Lambert v. Blackwell. 387 F.3d 210. 236 (3rd Cir. 2004)(citing Tavlor v.
Maddox. 366 F.3d 992. 999-1000 (9th Cir. 2004): and Valdez v. Cockrell. 274
F.3d 941. 951 n. 17 (5th Cir. 2001)).
25 Commonwealth v. Johnson. 966 A.2d 523 (2009).

28

“reasonable probability” that the outcome of the trial would
have been different.”
(Johnson. 966 A.2d at 541).
Strickland defines a “reasonable probability” as “a probability
sufficient to making a finding of prejudice and to undermine confidence
in an outcome.”26
The United States District Court and the Court of Appeals for the
Third

Circuit

granted

“great

deference”27

to

the

credibility

determinations of the P.C.R.A. Court based strictly on a statement of
incredibility from the Court, and a statement of credibility on that of
Trial Counsel, Warren P. Bladen, Esq., (Mr. Bladen).
This “deference”28 prevented further appellate review of the
matter on credibility determinations.

Specifically, those witnesses

presented by Mr. Hersh were deemed by the P.C.R.A. Court to be
incredible.

26 Strickland. 466 U.S. at 693.
27 “[A] decision adjudicated on the merits in a state court and based on a factual
determination will not be overturned on factual grounds unless objectively
unreasonable in light of the evidence presented in the state court proceeding... Yet,
‘deference does not imply abandonment or abdication of judicial review...’ In other
words, ‘deference does not by definition preclude relief.’ Thus a federal habeas court
can ‘disagree with a state court’s credibility determination.’” (Accord Miller-El v.
Cockrell. 537 U.S. 322. 340 (2003) and Wiggins v. Smith. 539 U.S. 510 (2003)).
28 Miller-El. 537 U.S. at 340).

29

Although, within Ramonez, the Sixth Circuit Court of Appeals
found “a Strickland v. Washington. 466 U.S. 668 (1984) violation
where counsel failed to present three favorable witnesses even though
the state post-conviction court said that one witness was ‘not
particularly helpful’ and another was incredible.”29
Instantly, however, the determinations of the P.C.R.A. Court are
not sufficiently supported by the certified record. In-fact, testimony of
Mr. Bladen states that: “[Mr. Hersh] indicated that the witness was
giving a thumbs up every time she answered a question. I believe I saw
that on at least one occasion. That’s about all he indicated...”30
Mr. Bladen’s determination within testimony undermines the very
foundation of the credibility assessment of the P.C.R.A. Court.

Mr.

Hersh’s witnesses, not only testified to this very factor of the witness
giving a “thumbs up” each time a question was asked by the
prosecution, but further eludes to the fact that the witness was
extremely tainted by “the implantation of false memories or the
distortion of real memories ... [through] interested adults”31 Yet their

29 Ramonez. 490 F.3d at 485-86.
30 N.T., Transcripts of Proceeding of PCRA Hearing, June 17, 2013 at 8:45 a.m.,
37:21-25, 38:1-3, 38:25, 39:l-2)(emphasis added).
31 Commonwealth v. Delbridge. 855 A.2d 27. 39 (2003).

30

testimony is deemed to be “incredible” by the P.C.R.A. Court, even when
corroborated by Mr. Bladen’s “credible”32 testimony.
The P.C.R.A. Court deeming Mr. Hersh, and the additional
witnesses as incredible is a legal impossibility, if Mr. Bladen’s
testimony is in-fact found to be credible. The certified record also does
not support this credibility determination, instead it supports the
position of Mr. Hersh. Mr. Bladen admits through testimony that Mr.
Hersh had indicated seeing “thumbs up” hand signals from both the
witness “every time she answered a question.”33

This testimony is

corroborated continuously throughout testimony of a menagerie of
sequestered witnesses. Yet, this flawed determination of the P.C.R.A.
Court is continuously determined to be fact throughout appellate
proceedings allowing Mr. Hersh to be denied proper appellate review.
Instantly, Mr. Bladen had a duty to Mr. Hersh, to eliminate the
“interested adults” when he had failed to object, orally motion for
mistrial, request a curative jury instruction or other applicable remedy
when a “thumbs up” hand signal was given from the testifying victim to
32 The P.C.R.A. Court determined that Mr. Bladen as “Counsel[,] credibly
testified...” throughout the P.C.R.A. evidentiary hearing. (N.T., P.C.R.A. Court
Opinion, August 6, 2013, 5:12).

31

the victims mother in the gallery, then back to the testifying victim.
Such was clearly a violation of established norms of attorney conduct,
along with tribunal decency.
Had the victim’s testimony been deemed inadmissible or in the
most severe of circumstances, a mistrial declared based upon the
uncouth conduct of the victim and members of the gallery, the
confidence in the tribunal would have been severely undermined,
meeting the standards of Strickland.
Instead, the Pennsylvania Courts, along with the United States
District Court unreasonably applied the proper credibility standards
bolstering the actions of those “interested adults” from the gallery who
sought to undermine the fundamental fairness of a tribunal.
It is clear by the argument supra, “that reasonable jurists would
debate whether the [Mr. Hersh’s] petition should have been resolved in
a different manner [when] the issues presented were ‘adequate to
deserve

encouragement to proceed further,”’34 based upon the

33 N.T., Transcripts of Proceeding of PCRA Hearing, June 17, 2013 at 8:45 a.m.,
37:21-25, 38:1-3, 38:25, 39:1-2).
34 Slack. 529 U.S. at 484.

32

“unreasonable

application”

of

the

State

Court’s

determination that is not supported by the certified record.

33

credibility

CONCLUSION

As briefed supra, the United States District Court of the Middle
District of Pennsylvania along with the United States Court of Appeals
for the Third Circuit erred in denying Mr. Hersh’s Petition for Writ of
Habeas Corpus and Certificate of Appealability due to the fact the
issues presented supra “sho[w] that [a] reasonable jurist[ ] would debate
whether (or, for that matter, agree that) the petition should have been
resolved in a different manner or that the issues presented were
‘adequate to deserve encouragement to proceed further.’”35
WHEREFORE, for the reasons, supra, Mr. Andrew Darvin
Hersh, Pro Se, Appellant in the above captioned case, prays this
Honorable Court vacate the judgment of sentence by the Adams County
Court of Common Pleas, and/or any other prudent relief this Honorable
Court deems appropriate.

35 Slack. 529 U.S. at 484

34

Respectfully Submitted,
Date: August 12, 2020
(signature)

Andrew Darvin Hersh, JW2630
Pro Se, Petitioner
S.C.I. Rockview
1 Rockview Place
Bellefonte, PA 16823-0820

35

